r

^

'N

h

? *
i

i,

l i

NO.

1 i 1 J

t

i—

V_j LJ

Supreme Court, U.S.
FILED

IN THE

MAR 0 5 2021

SUPREME COURT OF THE UNITED STATI S
OFFICE OF THE CLERK

DEIDRE A. PIERRE—PETITIONER
VS.
FREDERICK BOUTTE—RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI FROM THE
LOUISIANA SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

MAR 1 0 2021
CjlAASU
Deidre A. Pierre #445265
Louisiana Correctional Institute
for Women @ JCCY
P.O. Box 26
St. Gabriel, Louisiana 70776

QUESTION(S) PRESENTED
1. Whether the Eighth Amendment to the United States Constitution and Article I, Section 20, of
the Louisiana Constitution prohibits the imposition of excessive or cruel punishment in light
of the retroactivity of the Miller mandate concerning this twenty three year old in light of
recent developments of adolescent brain science and R.S. 15:574.4 D?
2. Whether it is truly constitutional for petitioner to spend the rest of her days in prison without
ever having had the opportunity to challenge why her trial judge chose the irrevocability
sentence of life without parole over the hope of freedom after 20, 25, or 30 years when the
law, after all, granted the trial judge the discretion to impose these lower sentences when
counsel fails to present evidence on his clients behalf at sentencing?
3. Whether lower courts erred in denying petitioner’s motion to correct illegal sentences and
enhancement when Counsel failed to present mitigating evidence on her behalf and then
Honorable Judge failed to articulate any reasons for sentences and enhancement imposed
violated petitioner’s Fifth, Eighth, Sixth, and Fourteenth Amendment to the Louisiana and
United States Constitution in light of Miller, Montgomery, Harris, Dorothy, Mosby,
Sepulvado, Esteen, Atkins?
4. Whether petitioner’s rights under the Fifth, Eighth, Sixth, and Fourteenth Amendment to the
Louisiana and United States Constitutions were violated in light of ambiguities concerning
the Miller mandate, Atkins, and Montgomery, Harris, Dorothy, Mosby, Sepulvado, Esteen,
C.Cr. P. Art. 883, and R.S. 15:529.1 ?
5. Whether the lower courts determination to deny relief to a twenty three year old runs afoul of
the Eighth Amendment right to the Constitution?

LIST OF PARTIES
[]

All parties appear in the caption of the case on the cover page

[X]

All parties do not appear in the caption of the case on the cover page. A list of all parties
to the proceeding in the court whose judgment is the subject of this petition is as follows:

District Attorney of Lafayette
Keith Stutes
P.O. Box 3306
Lafayette, LA 70502

District Court Judge
Michelle Braud
P.O. Box 2009
Lafayette, LA 70502

Supreme Court of Louisiana
Clerk of Court
400 Royal Street, Suite 4200
New Orleans, LA 70130-8102
Court of Appeal, Third
P.O. Box 16577
Lake Charles, La 70616

TABLE OF CONTENTS
TABLE OF AUTHORITIES

11

OPINIONS BELOW

1,11

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

PROCEDURAL HISTORY

4

REASONS FOR GRANTING THE PETITION

6

CONCLUSION

26

INDEX TO APPENDICES
APENDIX 1A- Louisiana Supreme Court denial 12-8-20; and memorandum with exhibits
APENDIX IB- Third Circuit Court of Appeal denial 5-20-20; memorandum with exhibits
APENDIX 1C- District Court denial; memorandum with exhibits
APENDIX ID- Miscellaneous in support and Evaluation by Dr. Mark Warner

i

TABLE OF AUTHORITIES
Cases
State v. Carouthers, 618 So.2d 880, 882 (La. 1993)

7

State v. Pierre, 842 So. 2d 321, 322 (La. 2003)

5

Adkins v. Wetzel, No. 13-3652, 2014 U.S. Dist. LEXIS 115405,
2014 WL 4088482, at *3-*4 (E.D. Pa. Aug. 18, 2014)............

22

Arizona v Fulminante, 499 US 279, 113 LEd 2d 302, 111 S Ct 1246 (1991)

29

Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153 L. Ed. 2d 335

i,13,14

Beaner v Louisiana State Penitentiary, (7-25-13), 2013 US Dist LEXIS 115741

14

Blakely v. Washington, 542 U.S. 296, 124 S. Ct. 2531,159 L. Ed. 2d 403 (2004)

15

Booker, 125 S. Ct. at 756

15

Central of Georgia R. Co. v Robins, 209 Ala 6, 95 So 367, 36 ALR 10

10

Chevalier v. L. H. Bossier, 95-2075, p. 6 (La. 7/2/96), 676 So.2d 1072, 1076

7

Christensen v Harris County, 529 US 576, 589, 146 LEd 2d 621, 120 S Ct 1655 (2000)

29

Clemons v. Mississippi, 494 U. S. 738, 749, 110 S. Ct. 1441, 108 L. Ed. 2d 725 (1990)

29

Darden v Wainwright, 477 US 168, 91 L Ed 2d 144, 106 S Ct 2464 (1986)

29

Dorthey, 623 So.2d at 1278

28

Eddings v Oklahoma, 455 U.S. 104, 114, 102 S.Ct. 869, 71 L.Ed. 2d 1 (1982)

26

Enmund v. Florida, (1982), 458 U.S. 782, 797, 102 S. Ct. 3368,
73 L. Ed. 2d 1140 (1982)........................................................

26

Ewing, 538 U.S. at 23

28

Gregg v. Georgia, 428 U.S. 153, 173, 96 S. Ct. 2909, 2925, 49 L. Ed. 2d 859, 874 (1976)

18

Harmelin v. Michigan, 501 U.S. at 1000

25

Kyles v Whitley, 514 US 419, 131 LEd 2d 490, 115 S Ct 1555 (1995)

29

Ladner v. United States, 358 U.S. 169, 177, 3 L. Ed. 2d 199, 79 S. Ct. 209 (1958)

11

Miller v. Alabama, 567 U.S. 460, 132 S. Ct. 2455,183 L. Ed. 2d 407 (2012)
n

12

National Rifle Ass'n of America, Inc. v. Bureau of Alcohol,
Tobacco, Firearms, and Explosives, 700 F.3d 185 (5th Cir. 2012)

13

Parker v. Dugger, 498 U. S. 308, 321, 111 S. Ct. 731, 112 L. Ed. 2d 812 (1991)

28

Patrick Matthews v Burl Cain, Warden, (8-13-18), 337 F. Supp. 3d 687;
2018 U.S. Dist. LEXIS 148234...........................................................

17

People v. Caballero, 55 Cal. 4th 262, 145 Cal. Rptr. 3d 286,
282 P.3d 291, 293-95 (Cal. 2012).....................................

23

People v. Rainer, 2013 WL 1490107 at 12 (Colo. App. Apr. 11, 2013)

23

Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)

5

Smith v. Digmon, 434 U.S. 332, 98 S. Ct. 597, 54 L. Ed. 2d 582 (1978)

27

Soffar v. Dretke, 368 F.3d 441, 467 (5th Cir. 2004)

27

Solem v. Helm, 463 U.S. 277, 300-301, 103 S. Ct. 3001, 3015,
77 L. Ed. 2d 637(1983)...............................................

12

State ex rel. Alden Morgan versus State of Louisiana; (10-19-16); 217 So. 3d 266;
2016 La. LEXIS 2077................................................................................................

23

State v Derek Harris, 2019 La. LEXIS 01012

14

State v Dreaux, No. 37235, (3-13-44), 205 La. 387; 17 So. 2d 559; 1944 La. LEXIS 677

27

State v Dreaux, No. 37235, (3-13-44), 205 La. 387; 17 So. 2d 559; 1944 La. LEXIS 677

27

State v Martin, (4th Cir., 1-30-02), 809 So. 2d 486; 2002 La App LEXIS 175...................

18

State v Montgomery (6-28-16), 194 So. 3d 606; 2016 La. LEXIS 1539

12

State v. Bethley, 12-853, p. 11 (La.App. 3 Cir. 2/6/13), 107 So.3d 841, 850

23

State v. Bryant, 2019 La.App. LEXIS 2084 (La.App. 2 Cir., Nov. 20, 2019)

15

State v. Bryant, 802 So.2d 627, 2001 La. LEXIS 3238 (La., Nov. 21, 2001)

15

State v. Cage, (12-11-89), 554 So. 2d 39; 1989 La. LEXIS 2949

6

State v. Cedars, 2017 La. App. Unpub. Lexis 230 (KH-16-1044; 2017)

16

State v. Clark, 391 So.2d 1174,1176 (La. 1980)

18
m

State v. Curley, 250 So. 3d 236; 2018 La. LEXIS 1686 (7-27-18)

10

State v. Fluker, 311 So.2d 863, 865 (La. 1975)

18

State v. Harris,(7-9-20), No: 2018-KH-01012

28

State v. Hart, No: 80-KA-2398, (4-15-81), 397 So.2d 518, 1981 La. LEXIS 7729.

27

State v. Johnson, 97-1906 (La. 3/4/98), 709 So.2d 672, 676

27

State v. Piazza, 596 So.2d 817, 820 (La. 1992)

7

State v. Pierre, 827 So. 2d 619, 623 (La. App. 3d Cir. 2002)

4

State v. Pierre, 842 So. 2d 321, 322 (La. 2003) (per curiam)

5

State v. Polkey, 529 So.2d 474 (La.App. 1 Cir. 1988)

9

State v. Springer, 2014 SD 80, 856 N.W.2d 460, 465 (S.D. 2014), cert, denied,
U.S. , 135 S. Ct. 1908, 191 L. Ed. 2d 775 (2015)......................................
Strickland v Washington, 466 US 668, 80 L Ed 2d 674, 104 S Ct 2052 (1984)

13
20,29

Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984)

20

Tison v. Arizona, 481 U.S. 137, 149, 107 S. Ct. 1676, 95 L. Ed. 2d 127 (1987)

25

Thompson v. Oklahoma, 487 U.S. 815, 826, n. 24, 850, 108 S. Ct. 2687,
, 176 L. Ed. 2d, at 837-841
101 L. Ed. 2d 702. Pp.

24

, (2020)

8

United States v. Abreu, 962 F.2d 1447, 1450-51 (10th Cir. 1992)

11

United States v. Batchelder, 442 U.S. 114, 121, 60 L. Ed. 2d 755,
99 S. Ct. 2198 (1979)................................................................

11

United States v. Campos-Serrano, 404 U.S. 293, 297, 30 L. Ed. 2d 457,
92 S. Ct. 471 (1971)............................................................................

11

United States v. Rene E., 583 F.3d 8 (1st Cir. 2009), cert, denied, 558 U.S. 1133,
130 S. Ct. 1109, 175 L. Ed. 2d 921 (2010)........................................................

13

United States v. Wiltberger, 18 U.S. 76, 95, 5 L. Ed. 37 (1820)

11

United States v. Wiltberger, 18 U.S. 76, 95, 5 L. Ed. 37 (1820)

11

U.S. v. Ramos, 590 U.S.

IV

Walbey, Jr. vs. Quarterman, (2-20-08), 2008 US Dist LEXIS 106679

14

Wardius v. Oregon, 412 U.S. 470, 474, 93 S. Ct. 2208, 2212, 37 L. Ed. 2d 82 (1973)

24

Weems v. U.S 217 U.S. 349367. 30 S.Ct. 544, 54 L. Ed. 793 (1910)

16

Wiggins v Smith 539 US 510, 156 L Ed 2d 471, 123 S Ct 2527, (2003)

14

Wiley v. Epps, 625 F.3d 199, 207 (5th Cir. 2010)

14

Workman v. Commonwealth, 429 S.W.2d 374, 378 (Ky.App.1968)

25

Statutes
4

24:177(C)
Art. 529 of the 1928 Code

27

C.Cr.P. Art. 833

24

C.Cr.P. Art. 894.1

23

C.Cr.P. Art. 930.8(A)(2)

.4,5

La. C.E. art. 404

4

La. C.E. art. 404(A)

4

La. C.E. art. 404(B)

,4

La. C.E. arts. 404(A)(2)(a), (B)(2)

4

La. Code Evid. art. 402

,4

R.S. 14:30.1

3,23

R.S. 15:574.4 (H)

.22

15:574.4(D)(1)

16

Other Authorities
Around the World, Adolescence is a Time of Heightened Sensation Seeking
and Immature Self-Regulation, Developmental Science 00 (2017) (Doc. No. 115-1)
v

22

Arthur H. Garrison, Rape Trauma Syndrome: A review of Behavioral Science Theory
and Its Admissibility in Criminal Trials, 23 Am. J. Trial Advoc. 591, 618-22 (2000)
Laurence Steinberg et al., Around the World, Adolescence is a Time of.

9
iv, 21,22

Melissa Hamilton, Some Facts About Life: The Law,
Theory, and Practice of Life Sentences, 20
Lewis & Clark L. Rev. 803, 813-14 (2016)...........

17

Steinberg & Scott, Less Guilty by Reason of Adolescence: Developmental Immaturity,
Diminished Responsibility, and the Juvenile Death Penalty,
58 Am. Psychologist 1009, 1014 (2003)......................................................................

13

The President's Commission on Law Enforcement and Administration of Justice,
Task Force Report: Juvenile Delinquency and Youth Crime 41 (1967)............

26

Twentieth Century Fund Task Force on Sentencing Policy Toward Young Offenders,
Confronting Youth Crime 7 (1978)..........................................................................

26

U.S. National Library of Medicine, available at https://www.ncbi.nlm.nih.gOv/pmc/a

8

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from the federal courts:
The opinion of the United States court of appeals appears at Appendix
petition and is
[ ] reported at
.; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
and is
[ ] reported at
.; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to the

to the petition

[ X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix Ato
the petition and is State v. Deidre Pierre, on 12-9-20.
or. 2020 - KH-01107
[ X] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Third Circuit Court of Appeal appears at Appendix B to the petition
and is State v Deidre Pierre on November 9, 2018.
; or KH 19-00219
[ X ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ]

No petition for rehearing was timely filed in my case.

[ ]

A timely petition for rehearing was denied by the United States Court of Appeals
, and a copy of the order
on the following date:_____________
denying rehearing appears at Appendix

[ ]

An extension of time to file the petition for a writ of certiorari was granted to and
(date) on
(date)
including_____
in Appendix No.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[ X ] For cases from state courts:
The date on which the highest state court decided my case was the Louisiana Supreme
Court, NO:. 2020 - KH-01107. A copy of that decision appears at Appendix C.
[ ]

A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing appears at
Appendix

[ ]

An extension of time to file the petition for a writ of certiorari was granted to and
(date) on
(date)
including _____
in Appendix No.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED
U.S. Const. Amend. V
U.S. Const. Amend. VI
U.S. Const. Amend. VIII
U.S. Const. Amend. XIV
Article I, Section 20 of the Louisiana Constitution of 1974
Sixth Amendment to the Louisiana Constitution
Fourteenth Amendment to the Louisiana Constitution
Fifth Amendment to the Louisiana Constitution
C.Cr.P. Art. 930.8
C.Cr.P. Art. 883
R.S. 15:529.1

A

R.S. 15:574.4(D)(1)
R.S. 15:574.4 (H)
R.S. 14:30.1
R.S. 14:27

3

PROCEDURAL HISTORY
Deidre Pierre was originally indicted on June 18, 1998, with one count of first degree
murder in violation of La.R.S. 14:30 and one count of attempted first degree murder in violation
of La. R.S. 14:27 and 14:30. Public Defender Lawrence Billeaud was appointed to represent peti­
tioner.
On December 10, 1999, the indictment was amended to reduce the charges to one count
of second degree murder in violation of La.R.S. 14:30.1 and one count attempted second degree
murder, a violation of La.R.S. 14:27 and 14:30.1. Public Defender Gregory L. Thibodeaux was
assigned to represent petitioner. Counsel pled not guilty and not guilty by reason of insanity. A
bench trial commenced with the Honorable Judge Herman Clause on September 10, 2001, and on
September 11, 2001, petitioner was found guilty as charged on both counts. Counsel filed a mo­
tion for a new trial, that was filed December 6, 2001, was denied. Counsel waived the twentyfour-hour delay, and the trial court sentenced petitioner to life imprisonment at hard labor with­
out the benefit of parole, probation, or suspension of sentence on the conviction of second
degree murder and to ten years at hard labor without the benefit of parole, probation, or suspen­
sion of sentence on the conviction for attempted second degree murder, to be served consecutive
to the life sentence. At sentencing, Counsel objected to the said sentences whereas the Honorable
Judge allowed an unspecified amount of time for counsel to file a motion with supporting docu­
mentation; however, counsel did nothing. Appeals ensued but were denied on excessive claims.
On direct appeal, the Appellate Project litigated that the record did not show that she
knowingly and intelligently waived her right to a jury trial. The appellate court agreed: it re­
versed and set aside her convictions and sentences, and remanded the case for a new trial. State v.
Pierre, 827 So. 2d 619, 623 (La. App. 3d Cir. 2002). The State filed a writ application to the Su­
preme Court of Louisiana seeking review of the appellate court's judgment. The Supreme Court

of Louisiana granted the writ, reinstated Pierre's convictions, and sentences, and remanded to the
appellate court for consideration of the other claims raised on appeal. State v. Pierre, 842 So. 2d
321, 322 (La. 2003) (per curiam). On remand, the appellate court affirmed Pierre's convictions
and sentences. A writ of certiorari to the Supreme Court of Louisiana was denied and attempts to
obtain state post-conviction relief were unsuccessful although the District Court granted an evi­
dentiary hearing on ineffective assistance of counsel. A notice of intent ensued. The Third Circuit
granted writ on the claims on ineffective assistance of counsel for failing to present any evidence
or testimony (lay or expert) concerning the insanity defense and battered woman’s syndrome.
A petition timely filed for writ of habeas corpus in the federal district court and denied. A
request for a certificate of appealability was filed. It was the Federal Court that found a "substan­
tial showing of the denial of [her] constitutional right" to a jury trial. 28 U.S.C. § 2253(c)(2);
Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000). Accordingly, a
certificate of appealability was granted on the issue of whether the record showed that petitioner
knowingly and intelligently waived her right to a jury trial. Ultimately relief was denied hence­
forth.
Petitioner filed a motion to correct an illegally excessive and harsh sentence in the district
court. A denial was rendered January 30, 2019. Petitioner timely filed a notice of intent in the
district court and thereinafter filed a timely writ to the Third Circuit Court of appeal on March
2019. A denial was rendered on May 20, 2020. Timely writs followed to the Louisiana Supreme
Court which was denied December 9, 2020. This instant writ is timely filed in the United States
Supreme Court on or before 90 days of the said Louisiana Supreme Court denial as signed and
dates herein on February 26, 2021.

5

REASONS FOR GRANTING THE PETITION
This Honorable Court has decided the merits of the Graham, Miller and Montgomery, in
addition to the retroactive applicability of Miller that violated the Eighth, Fourteenth, Sixth and
Fourth Amendments to the Federal and State Constitution. Pursuant to Miller’s retroactive affects
and petitioner’s documented cognitive immaturity and psychomotor retardation for her age
and high school education at twenty three years old in addition to being pregnant and suffering
decades of abuse in light of recent research on brain development the lower court’s decision to
ignore these factors runs afoul of the Eighth Amendment protections accorded to “juveniles”
when sentenced to life without benefits and an enhancement.
This Honorable Court did not draw a line at the age of eighteen.1 In addition, no one
above the ages of 18-25 year-old were excluded from the Miller’s holding with respect to a
mandatory sentence of life imprisonment for the same. It was in fact legislators that drew the line
at eighteen years old as a result of ambiguities in the definitions used in the said decisions of
Graham, Miller, and Montgomery? With the said ambiguities and argument presented herein,
and the fact that Louisiana has long since repealed their indeterminate sentencing provision
resulting in confusion, in addition to Louisiana’s history of being “tough on crime” with concerns
of recidivist since Furman v Georgia, 408 US 238, 33 L Ed 2d 346, 92 S Ct 2726, the lower
court’s decision to deny mandates of youth “and all that accompanies it” violates the mandates
rendered by this Honorable Court.
Petitioner contends that the line drawn at eighteen in light of expert evidence and the

1 Acts 2012, No. 466, the Louisiana legislature amended R.S. 15:574.4
2 State v. Cage, (12-11-89), 554 So. 2d 39; 1989 La. LEXIS 2949, age 19; Sate v. Messiah, (12-12-88), 538
So. 2d 175; 1988 La. LEXIS 2438, age 25.

6

definition of juvenile/youth/adolescent/youthfulness/child results in ambiguity. 3 In Tutson, a
neuroscience publication from 2013 discussing the "adolescent brain," the following was stated:
... It is well established that the brain undergoes a "rewriting" process that is not
complete until approximately 25 years of age. [footnote omitted]. The discovery has en­
hanced our basic understanding regarding adolescent brain maturation and it has provided
support for behaviors experienced in late adolescence and early adulthood. Several inves­
tigators consider the age span of 10-24 years as adolescence, which can be further divided
into substages specific to physical, cognitive, and social-emotional development, [foot­
note omitted].4
In the same article it is stated "[t]he fact that brain development is not complete
until near the age of 25 years refers specifically to the development of the prefrontal cor­
tex," which happens to be responsible for many things, including "the moderation of cor­
rect behavior." In discussing "behavioral problems and puberty," the article states that,
because adolescents rely heavily on the emotional regions of their brains, it can be chal­
lenging for them to make decisions that adults consider logical and appropriate. Id.
The very fact that the brain does not reach maturity until the age of twenty-five
leads to the conclusion that younger persons have a very real capacity to change and
moderate their behavior as they age. In other words, they have great potential for rehabili­
tation. State v Tutson, (Cir. 3rd, 3-7-19), 270 So 3d 684; 2019 La App LEXIS 437.
For example, Merriam Webster’s Dictionary ofLaws (2016) defines youthful as:
“A young person (as one statutorily specified age range) who commits a crime but
is granted special status entitling him or her to a more lenient punishment (as one involv­
ing probation or confinement in a special youth correctional facility) that would otherwise
be available- compare Juvenile Delinquent, Status Offender ♦ Young individuals who are
no longer juveniles may be categorized as youthful offenders. Youthful offender treat­
ment is generally designed to free a young person from the negative consequences of be­
ing convicted and punished as an adult, in the hope that she or she will be rehabilitated.
Factors in the determination of youthful offender status include the crime and the criminal
history of the individual.”

3 When two or more interpretations of a criminal statute are possible, the one construed in the light most
favorable to the defendant applies. It is a well-established tenet of statutory construction that criminal statutes are
subject to strict construction under the rule of lenity. State v. Carouthers, 618 So.2d 880, 882 (La. 1993). Thus,
criminal statutes are given a narrow interpretation and any ambiguity in the substantive provisions of a statute as
written is resolved in favor of the accused and against the State. State v. Becnel, 93-2536, p. 2 (La. 5/31/96), 674
So.2d 959, 960; Chevalier v. L. H. Bossier, 95-2075, p. 6 (La. 7/2/96), 676 So.2d 1072, 1076 (citing State v.
Piazza, 596 So.2d 817, 820 (La. 1992)).
4 Arian, Miriam et al., Neuropsychiatric Disease and Treatment, Maturation of the Adolescent Brain,
published online on 4/3/2013, https://www.ncbi.n1m.nih.gov/pmc/articles/PMC3621648

7

Since treating doctors deemed petitioner to be immature, impulsive, psychomotor retarded
and irrational at the time of the offense for her age and high school education, petitioner filed a
motion to correct an illegal sentence in light of new developments in the Eighth Amendment
jurisprudence in this 1998 pre-Miller case.5 Petitioner presents:
“Youth matters in determining the appropriateness of a lifetime of incarceration without
the possibility of parole. An offender's age is relevant to the Eighth Amendment, and so
criminal procedure laws that fail to take defendants' youthfulness into account at all
would be flawed.” Miller, supra.
Petitioner states that juvenile justice system dates back to the early 1900's, as a way to
nurture and rehabilitate youthful offenders. In erecting this youthful offender mechanism,
constant studies were developed in treatment and sentencing. The same is seen in light of the
historical perspective in overturning the unanimous jury verdict in U.S. v. Ramos, 590 U.S.

,

(2020). For this reason, it is incumbent to review merits concerning this black female from a
lower socioeconomic level that was suffered abuse and mental illness since her youth until
adulthood in light of the Miller mandate, ambiguities and counsel waiving her jury trial and
electing a bench while failing to present any evidence or testimony on his clients behalf. State v.
Pierre, 827 So. 2d 619, 623 (La. App. 3d Cir. 2002).
At the time of the offense, petitioner was twenty three years and five months old. Dr.
Mark Warner and Dr. William Carrington deemed that petitioner was immature, impulsive, and
severely psychomotorly retarded for her age and high school education.6 Petitioner was

5 Although an illegal sentence "is primarily restricted to those instances in which the term of the prisoner's
sentence is not authorized by the statute or statutes which govern the penalty," State v. Mead, 2014-1051, p.3
(La.App. 4 Cir. 4/22/15), 165 So.3d 1044, 1047, in Montgomery v. Louisiana, 577 U.S., 136 S. Ct. 718, 193 L. Ed.
2d 599 (2016), the United States Supreme Court reiterated that a substantive rule of constitutional law, such as that
introduced in Graham, is reviewable at any time.
6 See U.S. National Library of Medicine, at: https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3646325/
("Psychomotor retardation is a long established component of depression that can have significant clinical and
therapeutic implications for treatment. Manifestations of psychomotor retardation include slowed speech, decreased
movement, and impaired cognitive function."). A court may take judicial notice of factual information located in
postings on government websites. See Phillips v. Pitt Cty. Mem'l Hosp., 572 F.3d 176, 180 (4th Cir. 2009) (courts
may "take judicial notice of matters of public record").

8

documented as severely cognitively impaired. This documentation however was never
considered and is pre-Miller. Petitioner was also incompetent for some time requiring extensive
treatment, therapy, medication, with grief and crisis counseling. As an underlying cause of
mental illness, records revealed petitioner was raped at a young age and that the rape precipitated
her mental health deterioration. When Petitioner was nineteen years old, she was hospitalized
for a Major Depressions and a suicide attempt, before the rape was ever exposed.

n

Shortly

thereafter, petitioner met Anthony, became pregnant with Avante’ and the couple later married.
Within seven months of marriage, petitioner was hospitalized at Vermillion Psychiatric and
Addictive Medicines. Among the issues addressed were the rape, Anthony’s alcohol abuse and
physical abuse inflicted upon petitioner. In just a short time, abuses escalated to the point of
Anthony physically hurting three year old Avante’ while under the influence of alcohol which
prompted petitioner to flee to her parents. Due to ambiguities in domestic violence matters, the
Louisiana Supreme Court clarified the need for expert testimony and evidence on behalf of a
client. State v. Curley, 250 So. 3d 236; 2018 La. LEXIS 1686 (7-27-18). Regardless, the lower
court’s choosing to ignore this evidence when the evidence supports Curley and Miller:
“.. .qualities that distinguished juveniles from adults do not disappear when an individual
7 As further explained in Wilson:
Contemporary standards as defined by the legislature indicate that the harm inflicted upon a child when raped is
tremendous. That child suffers physically as well as emotionally and mentally, especially since the overwhelming
majority of offenders are family members. Louisiana courts have held that sex offenses against children cause untold
psychological harm not only to the victim but also to generations to come. "Common experience tells us that there is
a vast difference in mental and physical maturity of an adolescent teenager ... and a pre-adolescent child ... It is
well known that child abuse leaves lasting scars from generation to the next... such injury is inherent in the
offense." State v. Brown, 660 So.2d 123, 126 (La.App. 2 Cir. 1995). "... Aggravated rape inflicts mental and
psychological damage to its victim and undermines the community sense of security. The physical trauma and
indignities suffered by the young victim of this offense were of enormous magnitude ..." State v. Polkey, 529 So.2d
474 (La.App. 1 Cir. 1988)." Rape trauma syndrome, a well-recognized pattern of symptoms used to describe the
emotional and psychological responses that a person may experience before, during, or after {2011 U.S. Dist. LEXIS
9} a rape, includes the inability to form clear and vivid memories of the event. See Morrison Torrey, When Will We Be
Believed? Rape Myths & The Idea of a Fair Trial in Rape Prosecutions, 24 U.C. Davis L. Rev. 1013, 1044 & n. 150
(1991). See also Arthur H. Garrison, Rape Trauma Syndrome: A review ofBehavioral Science Theory and Its
Admissibility in Criminal Trials, 23 Am. J. Trial Advoc. 591, 618-22 (2000). See also State v. Norell, 614 So. 2d
755; 1993 La. App. LEXIS 725, rape of 14 year old affects victim for the rest of victim’s life.

9

turns 18. By the same token, some under 18 have already attained a level of maturity
some adults will never reach. For the reasons we have discussed, however, a line must be
drawn.... The age of 18 is the point where society draws the line for many purposes
between childhood and adulthood.” Roper, supra.
For these reasons, the mandate of Miller must apply due to ambiguous and
interchangeable use the words and definitions of youth, juvenile, adolescent, youthfulness, and
children according to Ballantine’s Law Dictionary, 3rd. Edition.8 In fact, in Roman law minor is
someone who is past puberty but less than twenty five years old.9 In many ways, the inquiry
posited by Miller presumes a youthful offender and asks a district court judge to predict what
may occur in the course of a future incarceration. Miller, supra. Petitioner further notes that Dr.
Mark Warner stated:
“.. .Ms. Pierre exhibits chronic history of maladjustment since her childhood. She
was hospitalized in New Orleans following a suicide attempt by overdose. Records reveal
a long history of chronic depression, poor stress coping skills and patterns of behavior
consistent with Borderline Personality Disorder....”
“.. .The latter is considered a pervasive maladaptive pattern of learned behavior
that is characterized by a pattern of instability and interpersonal relationships, self-image,
and marked impulsivity beginning in adolescence and characterized by affective or mood
instability, difficulty controlling anger, transient stress-related paranoid ideation or
dissociative symptoms, repeated suicidal gestures or threats, and intensely interpersonal
relationship...”
“...Instead, it is highly unlikely that she acted impulsively and irrationally without
specific intent to commit murder. As a result, she is likely to have difficulty making the
connection between her behavior and the consequences of her acts which will impair her
ability to recover from her depression and personality disorder...”10
8 A juvenile subject to parental control or guardianship. State v Gonzales, 241 La 619, 129 So 2d 796, 84
ALR2d 1248; one under the age of puberty, or not old enough to dispense with parental aid or care. Central of
Georgia R. Co. v Robins, 209 Ala 6, 95 So 367, 36 ALR 10; a person of tender years, as distinguished from a youth,
who, although legally an infant, possesses the size and strength of a man. 27 Am Jlst Inf § 112; a son or daughter of
a person, whether infant or adult. 2 Am J2d Adopt § 11; 39 Am JlstP&C§2;a natural child, as distinguished from
a child by adoption, unless the context of an instrument in question indicates an intention to include an adopted child
or to use the term child in a more extensive sense than its natural import, or such intention is to be inferred from the
attendant circumstances, or such a construction is required by a statutory definition. 2 Am J2d Adopt § 96; a word
which is not a technical legal term having a fixed and definite meaning, but one which is flexible and subject to
construction to give effect to the intention of the maker of the instrument in which it appears.
Bobby Jerry Tatum, Petitioner v. Arizona, No. 15-8850, (October 31, 2016), 137 S. Ct. 11; 196 L. Ed. 2d 284; 2016
U.S. LEXIS 6492; 26 Fla. L. Weekly Fed. S 385
9 Gamer Bryan A., Black’s Law Dictionary, 10th Ed. (Thomson Reuters: St. Paul, MN, 2014)
10 Thus, we are faced with a classic case where the longstanding "rule of lenity" is appropriately applied.
Simply put, that rule provides that "ambiguities in criminal statutes must be resolved in favor of lenity" for the
criminal defendant. United States v. Batchelder, 442 U.S. 114, 121, 60 L. Ed. 2d 755, 99 S. Ct. 2198 (1979); Ladner

10

The abundance of documents from the sanity commissioner Dr. Warner and the East Feli­
ciana Psychiatrist Dr. Carrington deemed there was no evidence of malingering and both de­
scribed this twenty three year old female was adolescent, youth, immature, impulsive among oth­
er terminology identical to Miller, Montgomery, and Graham’s definitions of a “juvenile” but
over the age of eighteen. The holding to juveniles being decided by chronological age is derived
from ambiguous words gleamed from this Court mandate when “youth is more than chronologi­
cal age” and in light of matters addressing the death penalty...not a single life sentence and en­
hancement that was inapplicable to petitioner. Importantly, petitioner has never even lived by
herself. She was under the care of adults (i.e. in laws, husband, family) because she was unable to
hold a steady job, or support herself and her son due to mental health reasons. Doctors (Warner)
also stated that with treatment, there was a strong probability that petitioner would be rehabilitat­
ed. In support and as evidenced of “juvenile” and “youth” rehabilitation for this now forty six
years old, on August 18, 2018, clemency was granted by all clemency board members upon ex­
amination of records inclusive of testimony from petitioner, staff, family, potential employers,
probation and parole and pardon board experts concerning mental health and abuse. Curley, Mil­
ler, Graham supra.11 However, with the unique circumstances of this case and the legislature
failing to meaningfully tailor sentences in support of this twenty three year old juvenile female at
the time of the crime in light of Miller is error.
“This Court explained that a life sentence without parole "deprives the convict of the most
basic liberties without giving hope of restoration, except perhaps by executive blemencythe remote possibility of which does not mitigate the harshness of the sentence. Id., 560
v. United States, 358 U.S. 169, 177, 3 L. Ed. 2d 199, 79 S. Ct. 209 (1958) ("Neither the wording of the statute nor its
legislative history points clearly to either [of two permissible] meanings. In that circumstance, this Court applies a
policy of lenity and adopts the less harsh meaning."); see also United States v. Campos-Serrano, 404 U.S. 293, 297,
30 L. Ed. 2d 457, 92 S. Ct. 471 (1971); United States v. Wiltberger, 18 U.S. 76, 95, 5 L. Ed. 37 (1820); United States
v. Abreu, 962 F.2d 1447, 1450-51 (10th Cir. 1992){ 1993 U.S. App. LEXIS 24} (enbanc) (discussing Supreme Court
authority on "rule of lenity"); Annotation, 62 L. Ed. 2d 827.
11 Graham makes clear that the ad hoc exercise of the executive's power of commutation does not afford
juveniles sufficient protection, and such inmates have nowhere else to go for relief other than the judiciary. Graham.

11

, 130 S. Ct. at 2027 (citing Solem v. Helm, 463 U.S. 277, 300-301, 103 S. Ct.
U.S. at
3001, 3015, 77 L. Ed. 2d 637 (1983).
In the instant case, “there is no way to calculate a parole eligibility date for a life sen­
tence. .. considering the governor has still not signed her pardon some three years later in the
19

wake of the Covid-19 pandemics .’’[emphasis added}. This holds truth that all juveniles up to
twenty five years old be included just as Louisiana Supreme Court Justices declared in reversing
and remanding the case in State v Montgomery (6-28-16), 194 So. 3d 606; 2016 La. LEXIS 1539:
“It is an unfortunate truth that there will certainly be some inmates that
demonstrate irretrievable depravity, that have set forth zero effort towards rehabilitation
and redemption, and are simply not ready for a parole eligible adjudication. On the other
hand, there will be some who were the victims of their own once transient immaturity and
regrettable impulsivity, long since passed, that present the lowest risk designation based
on their rehabilitative progress through the years. Whatever the result may be, all such
inmates that committed homicide when they were juveniles are entitled to a "meaningful
opportunity {194 So.3d 611} to obtain release" based on "demonstrated maturity and
rehabilitation" as required by Miller, 132 S. Ct. at 2469 (quoting Graham v. Florida, 560
U.S. 48, 74, 130 S. Ct. 2011, 2030, 176 L. Ed. 2d 825 (2010)).”
At present, petitioner is forty six years old and is suffering from health ailments. At the
time of arrest, petitioner was a few months into her twenty third birthday with no recourse for
relief. Regardless, the Supreme Court went a step further and decided in Miller v. Alabama, 567
U.S. 460, 132 S. Ct. 2455, 183 L. Ed. 2d 407 (2012) that a sentencing scheme which requires life
without parole for a defendant convicted of a homicide committed as a juvenile is unconstitution­
al. Miller requires a sentencing court to examine a juvenile homicide offender's "diminished cul­
pability and heightened capacity for change" and only thereafter be in a position to find he is "the
rare juvenile offender whose crime reflects irreparable corruption" and who deserves to die in
prison. Miller, 567 U.S. at 480, 132 S. Ct. at 2469.13 In this instant case, the Honorable Judge did

12 Graham, supra., P. G Annino, D.W. Rasmussen, & C.B. Rice, Juvenile Life Without Parole for NonHomicide Offenses: Florida Compared to the Nation, Public Interest Law Center, College of Law, Florida State
University (2009).
13 InMiller, the Supreme Court referenced Roper v. Simmons, 543 U.S. 551, 569-570, 125 S. Ct. 1183, 1195,
161 L. Ed. 2d 1 (2005) and Graham v. Florida, 560 U.S. 48, 130 S. Ct. 2011, 176 L. Ed. 2d 825 (2012) and noted:

12

not review the said records and counsel did not submit them at sentencing as he believed he has a
diminished capacity defense that was not recognized when pleading the dual plea of not guilty
and not guilty by reason of insanity. Thus, although Miller did not foreclose the possibility of life
without parole for a juvenile homicide offender, it further emphasized that a lifetime in prison is
an unconstitutional sentence for all but the rarest juvenile offender. Id. (quoting Roper, 543 U.S.
at 573, 125 S. Ct. at 1197). It has been held that Roper, Graham, and Miller signify "a shift in the
nation's moral tolerance" when it comes to the sentencing of juvenile offenders. State v. Springer,
2014 SD 80, 856 N.W.2d 460, 465 (S.D. 2014), cert, denied,

U.S., 135 S. Ct. 1908, 191 L. Ed.

2d 775 (2015). In addition, Atkins also supports the same since:
“In light of some deficiencies of persons who were mentally retarded with respect
to information processing, communication, abstract and logical reasoning, impulse con­
trol, and understanding of others-which deficiencies diminished such persons' culpability(a) it was questionable whether the death penalty's retribution and deterrence justifications
were applicable to such offenders, and such offenders faced a special risk of wrongful exThose cases [Roper and Graham] relied on three significant gaps between juveniles and adults. First, children have a
'"lack of maturity and an underdeveloped sense of responsibility,'" leading to recklessness, impulsivity, and heedless
risk-taking. Roper, 543 U.S., at 569, 125 S. Ct. 1183. Second, children "are more vulnerable ... to negative influences
and outside pressures," including from their family and peers; they have limited "contro[l] over their own
environment" and lack the ability to extricate themselves from horrific, crime-producing settings. Ibid. And third, a
child's character is not as "well formed" as an adult's; his traits are "less fixed" and his actions less likely to be
"evidence of irretrievable] deprav[ity]." Id., at 570, 125 S. Ct. 1183.
Our decisions rested not only on common sense-on what "any parent knows"-but on science and social
science as well. Id., at 569, 125 S. Ct. 1183. In Roper, we cited studies showing that" '[ojnly a relatively small
proportion of adolescents'" who engage in illegal activity " 'develop entrenched patterns of problem behavior.' " Id.,
at 570, 125 S. Ct. 1183 (quoting Steinberg & Scott, Less Guilty by Reason of Adolescence: Developmental
Immaturity, Diminished Responsibility, and the Juvenile Death Penalty, 58 Am. Psychologist 1009, 1014 (2003)).
And in Graham, we noted that "developments in psychology and brain science continue to show fundamental
differences between juvenile and adult minds"-for example, in "parts of the brain involved in behavior control." 560
U.S., at 68, 130 S. Ct., at 2026. We reasoned that those findings-of transient rashness, proclivity for risk, and
inability to assess consequences-both lessened a child's "moral culpability" and enhanced the prospect that, as the
years go by and neurological development occurs, his " 'deficiencies will be reformed.' " Id., at 68, 130 S. Ct. at
2027 (quoting Roper, 543 U.S., at 570, 125 S. Ct. 1183).M, 132 S. Ct. at 2464-2465 (footnote omitted). Miller noted
the science and social science supporting the conclusions made by the Supreme Court in Roper and Graham had
become even stronger. Id., 132 S. Ct. 2464 n.5. Compelling statistical support for these differences between juveniles
and adults may also be found in National Rifle Ass'n of America, Inc. v. Bureau ofAlcohol, Tobacco, Firearms, and
Explosives, 700 F.3d 185 (5th Cir. 2012) (finding the federal statute prohibiting federally licensed firearms dealers
from selling handguns to persons under age 21 does not violate the Second Amendment) and United States v. Rene
E., 583 F.3d 8 (1st Cir. 2009), cert, denied, 558 U.S. 1133, 130 S. Ct. 1109, 175 L. Ed. 2d 921 (2010) (Juvenile
Delinquency Act ban ofjuvenile possession of handguns did not violate the Second Amendment). Id., 311 So.2d at
865.

13

ecution, due to their lesser ability to make a persuasive showing of mitigation.” Atkins v.
Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153 L. Ed. 2d 335.14
Petitioner’s case is no different warranting relief on this life sentence without benefits
consecutive to ten years when counsel presents no records or testimony on his client’s behalf and
no articulation is made at sentencing pursuant to C.Cr.P. Art 833 and C.Cr.P. 894.1 resulting in
illegal and indeterminate sentences.15 When:
“there was some question at sentencing as to whether consecutive or concurrent
sentences {2013 U.S. Dist. LEXIS 23}were appropriate under state law, Judge Crichton
stated that, given Petitioner's mental status, he believed concurrent sentences were appro­
priate, and those sentences were imposed. Beaner v Louisiana State Penitentiary, (7-2513), 2013 US Dist LEXIS 115741. Without articulation, courts usually remand to the
lower court for a valid sentence however since the sentence of life in prison is the manda­
tory maximum and minimum sentence, Judges are unwilling to address the issues. Re­
gardless of arguments presented to the lower courts, petitioner’s claims present valid con­
stitutional claims as well as claims for mitigation that was prejudicial to petitioner.
Wiggins v Smith 539 US 510, 156 L Ed 2d 471, 123 S Ct 2527, (2003); Walbey, Jr. vs.
Quarterman, (2-20-08), 2008 US Dist LEXIS 106679.
As a youthful first offender, petitioner received sentences recidivist receive under R.S.
15:529.1.16 Some states, legislatures have responded to recidivist concerns by passing the “three
strikes and you’re out” legislation for sentences of life imprisonment for a third felony offender.”

14 Wiley v. Epps, 625 F.3d 199, 207 (5th Cir. 2010) ("[E]ven though Atkins left to the states the job of
implementing procedures for determining who is mentally retarded, 'it was decided against the backdrop of the
Supreme Court's and lower court's due process jurisprudence.'" (emphasis added) (quoting Rivera v. Quarterman,
505 F.3d 349, 358 (5th Cir. 2007))). Accordingly, the states retain substantial discretion to create appropriate
procedures, but they may not substantively redefine mental retardation so as to permit the execution of those who
"fall within the range of mentally retarded offenders about whom there is a national consensus." Atkins, 536 U.S. at
317.
15 See generally State v. Baham, 14-0653 (La.App. 5 Cir. 3/11/15), 169 So.3d 558 (if trial court elects to
impose consecutive sentences for single course of conduct, it must articulate its reasons), writ denied, 15-0040 (La.
3/24/16), 190 So.3d 1189; see also State v. Brown, 15-0096 (La.App. 5 Cir. 9/15/15), 173 So.3d 1262 (same); State v.
Harris, 11-0626 (La.App. 5 Cir. 11/27/12), 105 So.3d 914 (same); State v. Blanchard, 03-0612 (La.App. 5 Cir.
11/12/03), 861 So.2d 657 (same); cf. State v. Cornejo-Garcia, 11-0619 (La.App. 5 Cir. 1/24/12), 90 So.3d 458 (if
trial court elects to impose consecutive sentences for single course of conduct, it must articulate its reasons, though
failure does not require remand ifthe record provides an adequate factual basis to support the consecutive
sentences). Because the record does not contain an adequate basis for the trial court's decision here, a remand for
articulation of reasons is necessary.
16 State v Derrick L. Harris, (7- 9 -00), 2020 La LEXIS 1348, State v. Bryant, 802 So.2d 627, 2001 La.
LEXIS 3238 (La., Nov. 21,2001) Post-conviction relief denied at State v. Bryant, 2019 La.App. LEXIS 2084
(La.App. 2 Cir., Nov. 20, 2019)

14

Blakely v. Washington, 542 U.S. 296, 124 S. Ct. 2531, 159 L. Ed. 2d 403 (2004); See Booker, 125
S. Ct. at 756; Blakely, 124 S. Ct. at 2536-43. As seen in cases of habitual offenders Derrick Har­
ris and Fair Wayne Bryant, who were originally sentenced to life and have since challenged the
sentence, both have since been released from incarceration when both were proven to have bla­
tant disregard to laws warranting a harsh punishment, yet both received leniency and were re­
leased. Such is not the case for petitioner as a result of the legislatures excluding twenty three
year olds from Miller’s mandate in spite of prevailing evidence in support of petitioner’s docu­
mented history of a juvenile/youth/adolescent beyond the age of eighteen but below twenty six in
light of legislation contrary to the dictates of this Honorable Court.
Petitioner reiterates that the Court in Roper concluded that since juveniles have reduced
culpability, punishment for juveniles must reflect their lesser blameworthiness, and in light of
these innate characteristics of youth, juvenile offenders cannot be subjected to the harshest
penalty reserved for the most depraved offenders. Id. at 569. In the instant case, documentation
states petitioner “had no specific intent to harm anyone but was instead upset, impulsive and
irrational” and is not the worst type of offender when looking at mental health records and the
ex-husband also allowing petitioner permission to have contact with her new bom son in light of
these juvenile tendencies as well as his repeated abuse upon petitioner and ultimately Avante’.
As seen in the record, petitioner was hysterical after learning her son was shot and ultimately
died whereas petitioner needed years of crisis counseling and treatment. Even upon entering an
adult prison and mental health issues arose, petitioner, under the care of prison staff, received the
treatment, medication, and education needed to overcome the effects of being raped at an early
age, abused throughout childhood where Social Services became involved and abused by her
husband, forced abortion, and death of Avante, etc.
In light of Roper and Graham, in Miller v. Alabama, 567U.S.460 , 132 S. Ct. 2455,
15

2464, 183 L. Ed. 2d.407 (2012), the U.S. Supreme Court found sentences of mandatory life
imprisonment without parole for juvenile homicide offenders violated the Eighth Amendment. In
several instances, the state courts and legislatures defined juveniles as persons under the age of
18 years old. The provision of law exists remedying any Miller violation by providing for
respondent's parole, eligibility. Louisiana Revised Statute 15:574.4(D)(1) provides:
Notwithstanding any provision of law to the contrary, any person serving a
sentence of life imprisonment who was under the age of eighteen years at the time of the
commission of the offense, except for a person serving a life sentence for a conviction of
first degree murder (R.S. 14:30) or second degree murder ( R.S. 14:30.1), shall be
eligible for parole consideration pursuant to the provisions of this Subsection if all of the
following conditions have been met....Respondent is a person serving a sentence of life
imprisonment who was under the age of eighteen years at the time of the commission of
the offense. Therefore, he shall be eligible for parole consideration pursuant to the
provisions of the subsection.
At thd other end of the spectrum, the Louisiana Supreme Court has also addressed
youthfulness when over eighteen years of age when looking at life in numbers.17
(life in numbers such as 99 years). This right flows from the basic ‘precept of
justice that punishment for crime should be graduated and proportioned” to both the
offender and their offense. Ibid, (quoting Weems v. U.S, 217 U.S. 349, 367, 30 S.Ct. 544,
54 L. Ed. 793 (1910), State v. Cedars, 2017 La. App. Unpub. Lexis 230 (KH-16-1044;
2017)
In 2018 it was reported that California built on this precedent by directing individuals
convicted under 26 to Youth Offender Parole Hearings.18 Similarly, one scholar has opined:
“At least in jurisdictions without generous early release provisions, life sentences
are practically akin to "death-in-prison sentences" or necessarily beget "death by
incarceration." A "life term" is a cultural artifact, signifying the recipient's penal servitude
until the end of his natural life. In other words, the State is thereby proactively and
physically condemning the individual to die within prison walls. (2018 U.S. Dist. LEXIS
23} One author posits a life sentence is merely "a semantically disguised sentence of
death." For the foregoing reasons, the availability of a life sentence has been referred to as
11State v. Stokes, (La., May 28, 2019) 2019 La. LEXIS 1721; State ex rel. Alden Morgan v. State, (10-1616), 217 So.3d 266, 2016 La. LEXIS 2077
18 Gingrich, N. (2015-April 13). A second chance for young offenders. HuffPost. Retrieved from
http://www.uffingtonpost.com

16

the "new death penalty" or the "other death penalty."
Alternatively, commentators have contended that life sentences can be more
punitive than capital punishment, while receiving far fewer substantive and procedural
protections. Professor Berry reasonably notes how a life sentence may be experienced by
prisoners as extra brutal: "A death sentence has an end date, which for some may be less
traumatic than imprisonment until one dies of natural causes. To the extent that living in
prison constitutes suffering, life without parole allows for greater suffering, or at least a
longer time for suffering." Compared to capital cases, cases resulting in life sentences are
procedurally less likely to necessitate individualized attention to the offender's own
characteristics, receive careful and extensive review, enjoy lengthy appellate processes, or
be reversed. Melissa Hamilton, Some Facts About Life: The Law, Theory, and Practice of
Life Sentences, 20 Lewis & Clark L. Rev. 803, 813-14 (2016) (footnotes omitted).” See
Patrick Matthews v Burl Cain, Warden, (8-13-18), 337 F. Supp. 3d 687; 2018 U.S. Dist.
LEXIS 148234.
In light what is now known in regards to sanctioning a youth to a sentence of life without
benefits, petitioner brings to view that the Louisiana Supreme Court has followed the rule and the
similar rule against imposition of capital punishment for offenders under 18 years of age. In Rop­
er v. Simmons, 543 U.S. 551, 125 S. Ct. 1183, 161 L. Ed. 2d 1 (2005), the U.S. Supreme Court
held that "the death penalty cannot be imposed upon juvenile offenders" 543 U.S. at 575, 125 S.
Ct. at 1198, and the court further drew the line between juvenile and adult offenders at age 18,
543 U.S. at 574, 125 S. Ct. at 1197. Miller requires a court to hold a hearing at which "youth and
its attendant circumstances are considered as sentencing factors[.]" Id. at 733-734.
“The rule from Miller also applies to a discretionary life without parole sentence,
even though Miller arose from states that required a sentencing court to impose life with­
out parole on a child. In Montgomery, the Supreme Court indicated that Miller applies to
states with discretionary schemes. The Court held that "[ejven if a court considers a
child's age before sentencing him or her to a lifetime in prison,{2020 U.S. Dist. LEXIS
15} that sentence still violates the Eighth Amendment for a child whose crime reflects un­
fortunate yet transient immaturity. Montgomery, 136 S. Ct. at 734. Thus, a court "consid­
ers a child's age before sentencing him or her to a lifetime in prison" in states like Ore­
gon, in which a court has discretion in imposing the sentence. Id.
Petitioner contends that the basis of the Miller decision was upon a Graham’s death pen­
alty. Since then legislatures have implemented legislation based line drawing at 18 with regards

17

to life sentences when this Honorable Court did not.19 For a first time offender having never seen
the inside of a courtroom or jail, this twenty three year old black female is confined to prison for
the remainder of her life although her documented history proves what experts declared concern­
ing 18-25 year olds under decades of physical, mental and psychological abuses. Nonetheless,
with this history beginning from rape but hospitalized for the first time at age nineteen further
supports the Miller mandate must apply to a petitioner under the prevailing research in favor of
brain development in light of documented immaturity, poor impulse control, severe psychomotor
retardation and diagnosis of Severe Depression, Severe and Recurrent, with psychotic features.
Petitioner contends that the Louisiana Supreme Court drew the line at age 18, well aware
of the "objections always raised against categorical rules," id., 543 U.S. at 574, 125 S. Ct. at
1197, driven by two rationales: there was "objective indicia of consensus" against sentencing ju­
venile offenders to death in that, for example, most States had already rejected that possibility;
and the death penalty "is a disproportionate "punishment" because juvenile offenders as a class
are less culpable than adult offenders. Id., 543 U.S. at 563-69, 125 S. Ct. 1191-95. The U.S. Su­
preme Court has drawn the line at 18 years in declaring the prohibition against life imprisonment
without benefit of parole for juvenile offenders in Graham. The Louisiana Supreme Court has

19 Cruz\ Just as concealed weapons presented a danger to the public order in 1813, they continue to do so,
particularly when those weapons are in the hands of impulsive, immature juveniles. Protecting the juvenile
population from itself and protecting society-at-large from increased gun violence is now, more than ever, a
compelling interest of the government. In State v. Fluker, 311 So.2d 863, 865 (La. 1975), this court presented "an
historical exegesis of the concealed weapons law in Louisiana." Fluker noted "[t]he first statute to proscribe the
concealment of weapons was enacted in 1813," the year after Louisiana became a state. Id., 311 So.2d at 865.

>

In fact, as noted in State v. Clark, 391 So.2d 1174,1176 (La. 1980), although the statute in effect at the time
of the commission of the offense applies, subsequent amendments have been recognized to be relevant in sentencing:
In Gregg v. Georgia, 428 U.S. 153, 173, 96 S. Ct. 2909, 2925, 49 L. Ed. 2d 859, 874 (1976) (Opinion of Justices
Stewart, Powell and Stevens) [stated that] "an assessment of contemporary values concerning the infliction of a
challenged sanction is relevant to the application" of the Eighth Amendment's ban against cruel and unusual
punishment. It is no less relevant to the inquiry of whether a particular penalty is excessive. And it has been
acknowledged that legislative enactments provide an important means of ascertaining contemporary values. Id. at n.
19. State v Martin, (4th Cir., 1-30-02), 809 So. 2d 486; 2002 La App LEXIS 175.

18

followed that rule and the similar rule against imposition of capital punishment for offenders un­
der 18 years of age without addressing ambiguities as litigated in this case. In cases concerning
second degree murder, nothing has been done to correct the “one strike” law for first offenders
whose instant and only offense by legislatures is a mandatory maximum and minimum sentence
of life in prison for those offenders 18 -25. The determination as to applicability of this individu­
al offender since the evolution of adolescent brain development has come forth gives reason to
deviate from that bright-line rule under the circumstances of these tragedies.
In dismissing the penological justification of incapacitation, the Graham court has
specifically rejected such premature judgment about a juvenile's lack of potential for growth and
maturity. The Supreme Court has reemphasized its express rejection of denying parole eligibility
on the ground of incorrigibility, stating that existing state laws, allowing the imposition of these
sentences based only on a discretionary, subjective judgment by a judge or jury that the offender
is irredeemably depraved, are insufficient to prevent the possibility that the offender will receive
a life without parole sentence for which he or she lacks the moral culpability. Graham v. Florida.
In the instant case, in spite of all the documentary evidence in petitioner’s favor, none of
this evidence was presented to the Honorable Judge at trial or sentencing. Counsel also failed to
file a motion to reconsider the said sentences after the Honorable Judge allowed an undetermined
amount of time in which to file. Instead counsel offered nothing in support of his client and the
Honorable Judge believed he had no options but to sentence petitioner to life.
This Honorable Court addressed matters very similar in State v. Harris concerning a life
sentence and sentencing enhancement when the Honorable Judge believed he could not depart
from the mandatory life sentence when counsel failed to inform the court otherwise amounting to

19

ineffective assistance of counsel under Strickland progeny.

90

•

»

♦

«

Without the said evidence being

introduced and proffered, the Honorable Court was without available evidence to consider a
lesser verdict and/or appropriate sentence in this case. In light of post-conviction evidentiary
hearings, the Court deemed petitioner met the first prong of Strictland. Since then it was
determined that counsel was ineffective in failing to investigate and present available mitigating
evidence: Supreme Court’s decision in ‘Williams [v. Taylor] ... stands for the proposition that
counsel can be prejudicially ineffective even if some of the available mitigation evidence is
presented and even if there is psychiatric testimony”). Walbey v. Quarterman, 309 Fed. Appx.
795, 2009 U.S. App. LEXIS 942 (5th Cir. Jan. 19, 2009) (per curiam). For this reason, there is no
doubt that counsels actions were volatile of the Sixth Amendment to the State and Federal
Constitution.
In support, not only did counsel believe that he had a diminished capacity defense and
presented nothing on his clients behalf at trial or sentence, there was a plethora of documentation
revealing that petitioner as immature for her age (23 years old), high school education and ap­
pearance, in addition to having poor impulse control stemming from when she was raped as a
teenager when doctors evaluated her prior to, and after the crime it is inconceivable all evidence
withheld proves and supports what experts deemed relevant to including this petitioner in its
mandate decades.

21

In light of the evidence presented, petitioner contends that she has proven the applicability
of the retroactivity decision applies to her case. As cited in Cruz, “What we do know is that the
Miller decision is ambiguous and the line drawn by legislatures which excludes 18-25 year olds

“Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984)
21 Under Louisiana law, however, "a mental defect or disorder short of insanity cannot serve to negate
specific intent and reduce the degree of the crime." State v. Lecompte, 371 So.2d 239, 243 (La. 1978). See also
Deidre Pierre versus Mariana Leger, Warden, (May 16, 2011), 2011 U.S. Dist. LEXIS 72071

20

not only discriminates against this age group, but also leaves open the applicability...” “of this
twenty three year old black female” from the Miller since Miller does not hold that mandatory
life imprisonment without parole is unconstitutional as long as it is applied to those over the age
of 18.22 Cruz. In Cruz, the United States District Court of Connecticut granted relief in the face of
such ambiguity concerning Miller’s adolescent child development for the eighteen year and five
month old:
“up until the age of 24, people exhibit greater risk-taking and reward-sensitive behavior
when in the presence of their peers. See id. at 24-25. Adults after{2018 U.S. Dist. LEXIS
65} the age of 24 do not exhibit this behavior, but rather perform the same whether they
are by themselves or with their peers. See id.”
Considering this case, it is beyond a reasonable doubt petitioner was with her husband
and others, and an altercation occurred upon the husband putting his hand on petitioner, petition­
er reacted impulsively, irrationally, cognitively psychomotor retarded, etc., as a juvenile of­
fender while with family and her abusive husband when the altercation occurred leading to the
traumatic death of Avante’. Petitioner may have been over eighteen however, medical documen­
tation determined she was cognitively under the age of a high school education of 18. Moreso, in
Cruz, the court read Cruz's pro se filings liberally to raise the strongest arguments that they sug­
gest. Luis Noel Cruz, v. United States ofAmerica, NO. 1 l-CV-787 (JCH), (3-29-18), 2018 US
Dist LEXIS 52924; See Willey v. Kirkpatrick, 801 F.3d 51, 62 (2d Cir. 2015). the Court agreed
language was ambiguous and Cruz at the age of eighteen was a juvenile. See also Cruz v. United
States (Second Circuit Court of Appeals), No. 13-2457.

Petitioner proffers all evidence and tes-

22 Dr. Steinberg distinguished between two different decision-making processes: cold cognition, which
occurs when an individual is calm and emotionally neutral, and hot cognition, which occurs when an individual is
emotionally aroused, such as in anger or excitement. See id. at 9-10. Cold cognition relies mainly on basic thinking
abilities while hot cognition also requires the individual to regulate and control his emotions. See id. at 10. While the
abilities required for cold cognition are mature by around the age of 16, the emotional regulation required for hot
cognition is not fully mature until the early- or mid- 20s. See id. at 10, 70; see also Cohen et al., When Does a
Juvenile Become an Adult?, at 786 (finding that, "relative to adults over twenty-one, young adults show diminished
cognitive capacity, similar to that of adolescents, under brief and prolonged negative emotional arousal").
23 In Cruz, the court read Cruz's pro se filings liberally to raise the strongest arguments that they suggest.

21

timony presented by experts in Cruz and. Adkins v. Wetzel, No. 13-3652, 2014 U.S. Dist. LEXIS
115405, 2014 WL 4088482, at *3-*4 (E.D. Pa. Aug. 18, 2014). With this shift in national consen­
sus, only recently did Louisiana legislatures reinstate the “old timers life sentence” for those who
committed the offense of second degree murder between July 2, 1973 and prior to June 29, 1979
parole eligibility after serving forty years in R.S. 15:574.4 (H) since the Louisiana holds more
lifers than larger states and incarcerated more inmates per capita. In light of the failure to indi­
vidualize sentences per mandate in Miller, is blatant error and a violation of juvenile rights.The
Constitution is clear:
“If the Constitution establishes a rule and requires that the rule have
retroactive application, then a state court's refusal to give the rule retroactive effect
is reviewable by the U.S. Supreme Court. States may not disregard a controlling,
constitutional command in their own courts. (Kennedy, J., joined by Roberts, Ch.
J., and Ginsburg, Breyer, Sotomayor, and Kagan, JJ.){ 193 L. Ed. 2d 601}.”
In the instant case, the mandate focuses on retroactivity because the petition was
authorized prior to the Supreme Court's ruling in Montgomery v. Louisiana, 136 S. Ct. 718, 193 L.
Ed. 2d 599 (2016), and likely also because petitioner’s memorandum likewise focused on the
issue of an illegal sentence and retroactivity.
At the time of Miller, the assessment was based upon matters concerning the death penal­
ty which drew the line at the age of eighteen. However, upon this honorable Court deciding Mil­
ler, legislatures automatically began drawing the line at under the age of eighteen. Petitioner con­
tends that only this court can decide the merits of this case due the ambiguity in the case law,
Luis Noel Cruz, Petitioner, v. United States of America, Respondent, NO. ll-CV-787 (JCH), (3-29-18), 2018 US
Dist LEXIS 52924; See Willey v. Kirkpatrick, 801 F.3d 51, 62 (2d Cir. 2015). The evidence presented by Cruz here
includes numerous articles and studies by Dr. Steinberg and others, as well as Dr. Steinberg's expert testimony before
the court. Among other things, Dr. Steinberg testified that most of the research on adolescent brain development for
late adolescents beyond age did not emerge until the end of the 2000s and early 2010s. See Steinberg Tr. at 14.
Therefore, it is unlikely that one article from 2007 could capture the breadth or depth of scientific evidence on late
adolescence presented before this court, which includes, inter alia, research published in 2016 and 2017. See
Alexandra Cohen et al., When Does a Juvenile Become an Adult? Implications for Law and Policy, 88 Temple L.
Rev. 769 (2016) (introduced by Cruz at the evidentiary hearing before this court in Marked Exhibit and Witness List
(Doc. No. 113)); Post-Hr'g Mem. in Supp., Ex. 1, Laurence Steinberg et al., Around the World, Adolescence is a Time
ofHeightened Sensation Seeking and Immature Self-Regulation, Developmental Science 00 (2017) (Doc. No. 115-1)

22

statues, wording, and sentencing. Louisiana has rendered numerous decisions protecting the
rights of persons over the age of eighteen concerning life in numbers addressing youth, except in
cases where the offender was over the age of eighteen but within the age limit of 18-25. See State
v Tutson, (3rd Cir., 3-7-19), 270 So. 3d 684; 2019 La App LEXIS 437.
Petitioner likes to present that the following states have determined that youth counts thus
allowing the following ages: California 26, Missouri 21, Connecticut 18 years and five months,
New York 18-21 family law sees as juvenile. As one academic onlooker put it:
What difference is there really between 120 years and life besides semantics,
because the reality is the same either way? All sentencing courts would have to do is stop
issuing [life without parole sentences] and instead start sentencing those same juveniles to
100 years, and the problem is solved. Gone would be the idea that juveniles are different,
less culpable, and more deserving of a meaningful opportunity for release. Gone would be
the incentive to rehabilitate. Gone would be Graham. Leanne Palmer, Juvenile Sentencing
in the Wake of Graham v. Florida: A Look Into Uncharted Territory, 17 Barry L. Rev.
133, 147 (2011). See also People v. Rainer, 2013 WL 1490107 at 12 (Colo. App. Apr. 11,
2013) ("Based on our consideration of the Supreme Court's Eighth Amendment
jurisprudence, and federal and state rulings since Graham, we conclude that the term of
years sentence imposed on Rainer, which does not offer the possibility of parole until
after his life expectancy, deprives him of any 'meaningful opportunity to obtain [Pg 14]
release' and thereby violates the Eighth Amendment."); People v. Caballero, 55 Cal. 4th
262, 145 Cal. Rptr. 3d 286, 282 P.3d 291, 293-95 (Cal. 2012) {Miller "made it clear that
Graham's 'flat ban' on life without parole sentences applies to all nonhomicide cases
involving juvenile offenders, including the term-of-years sentence that amounts to the
functional equivalent of a life without parole sentence;" Graham does not "focus on the
precise sentence meted out" but requires some realistic opportunity to obtain release).24
Petitioner notes that R.S. 14:30.1 sets a mandatory minimum and maximum sentence of
life in prison without the benefit of probation, parole or suspension of sentence for all offender
classes like that of a habitual offender and also uses C.Cr.P. Art 883 on a first offender without
compliance with C.Cr.P. Art. 894.1 or mandates designed for a sentencing. For instance,
petitioner was given a consecutive sentence without articulating the reasons for doing so in spite

24 State ex rel. Alden Morgan versus State ofLouisiana', (10-19-16); 217 So. 3d 266; 2016 La. LEXIS 2077

23

of mandatory language being evident concerning consecutive sentences.

With this being so,

Louisiana has the highest number of offenders sentenced to life without benefits with sentencing
enhancements over any other state. The fact that many jurisdictions do not expressly prohibit the
sentencing practice at issue is not dispositive because it does not necessarily follow that the
legislatures in those jurisdictions have deliberately concluded that such sentences would be
appropriate. See Thompson v. Oklahoma, 487 U.S. 815, 826, n. 24, 850, 108 S. Ct. 2687, 101 L.
Ed. 2d 702. Pp.

, 176 L. Ed. 2d, at 837-841. On the other hand, the enhancement

penalty of C.Cr.P. Art. 833 allows the Honorable Judge to order sentences to run consecutively or
concurrently provided that the Honorable Judge articulates of the reasons or the sentence would
be illegal and indeterminate. See C.Cr.P. Art. 879. The Honorable Judge articulated absolutely
nothing and did not believe he had options of sentencing petitioner to less than the mandatory
maximum and minimum and enhancement sentences in this case. In addition, counsel failed to
present any of petitioner’s history of being raped as a child and abused thereafter that prompted
her mental health problems, suicide attempts, cuttings, mental hospitalizations at age nineteen
concerning issues of the same just before succumbing to incarceration as a result of domestic
abuse inflicted upon her and the young child by her husband which was cited in State of
Louisiana v Deidre Antoinette Pierre, (3rd., 6-11-03), 854 So. 2d 945; 2003 La. App. LEXIS 1730.
It’s noted that the guidelines are advisory, not mandatory, however, this was before Miller and
Montgomery mandates. Inherent injustice and the concept of fundamental fairness is ensuring a
"balance of forces between the accused and his accuser." Wardius v. Oregon, 412 U.S. 470, 474,
93 S. Ct. 2208, 2212, 37 L. Ed. 2d 82 (1973).

25 State v. Bethley, 12-853, p. 11 (La.App. 3 Cir. 2/6/13), 107 So.3d 841, 850

24

The defendant has presented several facts regarding her family history or special circum­
stances that would support the Eighth, Fifth, Sixth and Fourteenth Amendment of the Federal and
State Constitutions concerning the life sentence and consecutive nature of ten years. Moreover,
immaturity, unlike age, is a subjective criterion, ill-suited to the pronouncement of categorical
rules. See generally Harmelin v. Michigan, 501 U.S. at 1000 (Kennedy, J., concurring) (empha­
sizing that proportionality review "should be informed by objective factors to the maximum pos­
sible extent" (internal quotation marks omitted)). The Supreme Court recognized as much when,
in "[d] rawing the line at 18 years of age" for death eligibility in Roper v. Simmons, it acknowl­
edged that "[t]he qualities that distinguish juveniles from adults do not disappear when an indi­
vidual turns 18." 543 U.S. at 574. Nevertheless, "a line must be drawn" to pronounce a categori­
cal rule, and because "[t]he age of 18 is the point where society (2013 U.S. App. LEXIS 30}
draws the line for many purposes between childhood and adulthood," the Court used that age to
distinguish the class of offenders that categorically could not be sentenced to death from others
to whom no such categorical prohibition would apply. Id. This is not to suggest that an adult defendant's immaturity is irrelevant to sentencing.

'j/:

Petitioner notes in U.S. v. Leonides Sierra,

26 “Our decision does not categorically bar a penalty for a class of offenders or type of crime-as, for
example, we did in Roper or Graham. Instead, it mandates only that a sentencer follow a certain process-considering
an offender's youth and attendant characteristics-before imposing a particular penalty. Miller, 132 S. Ct. at 2471
(emphasis added). See Black's Law Dictionary 1242 (8th ed. 2004) (defining "process" as "[t]he proceedings in any
action"); Webster's International Dictionary 1808 (3d ed. 1961) (defining "process" as "the course of procedure in a
judicial action").”
Roper and Graham emphasized that the distinctive attributes of youth diminish the penological justifications
for imposing the harshest sentences on juvenile offenders, even when they commit terrible crimes. Because '"[t]he
heart of the retribution rationale'" relates to an offender's blameworthiness, "'the case for retribution is not as strong
with a minor as with an adult.'" Graham, 560 U.S., at 71, 130 S. Ct., at 2028 (quoting Tison v. Arizona, 481 U.S. 137,
149, 107 S. Ct. 1676, 95 L. Ed. 2d 127 (1987); Roper, 543 U.S., at 571, 125 S. Ct. 1183). Nor can deterrence do the
work in this context, because "'the same characteristics that render juveniles less culpable than adults'"-their
immaturity, recklessness, and impetuosity-make them less likely to consider potential punishment. Graham, 560 U.S.,
at 72, 130 S. Ct., at 2028 (quoting Roper, 543 U.S., at 571, 125 S. Ct. 1183). Similarly, incapacitation could not
support the life-without-parole sentence in Graham : Deciding that a "juvenile offender forever will be a danger to
society" would require "mak[ing] a judgment that [he] is incorrigible"-but '"incorrigibility is inconsistent with
youth.'" 560 U.S., at 72-73, 130 S. Ct., at 2029 (quoting Workman v. Commonwealth, 429 S.W.2d 374, 378
(Ky.App.1968)). And for the same reason, rehabilitation could not justify that sentence. Life without parole
"forswears altogether the rehabilitative ideal." Graham, 560 U.S., at 74, 130 S. Ct., at 2030. It reflects "an

25

“Enmund v. Florida, which held that the Eighth Amendment categorically forbids "impo­
sition of the death penalty on one ... who aids and abets a felony in the course of which a
{933 F.3d 98} murder is committed by others but who does not himself kill, attempt to
kill, or intend that a killing take place." 458 U.S. 782, 797, 102 S. Ct. 3368, 73 L. Ed. 2d
1140(1982).
With Dr. Warner deeming petitioner did not have specific intent to kill her husband or her
son, a sentence of life is extremely cruel and excessive. Petitioner prays that this Honorable
Court ends the chronological age touchstone used as illegal with respect to data present in sup­
port of invalidating juvenile life and death sentences when there is an abundance of ambiguity in
the use of the words juvenile, youth and youthful offenders. “Youth is more than a chronological
fact” Id. At 2467 (quoting Eddings v Oklahoma, 455 U.S. 104, 114, 102 S.Ct. 869, 71 L.Ed. 2d 1
(1982). The Supreme Court has acknowledged “that [[it’s] precedents in this area have not been a
model of clarity. Lockyer v Andrade, 538 U.S. 63, 72, 123 S.Ct. 1166, 155 L. Ed.2d 144 (2003),
considering practices concerning Miller, C.Cr.P. Art. 833, C.Cr.P. Art 894.1, and presentence
investigations. Miller court’s main premise and mandate was that “youth matters for purposes of
meting out the law’s most serious punishments.” id. at 2471.
"Adolescents everywhere, from every walk of life, are often dangerous to them­
selves and to others." The President's Commission on Law Enforcement and Administra­
tion of Justice, Task Force Report: Juvenile Delinquency and Youth Crime 41 (1967).
"[Ajdolescents, particularly in the early and middle teen years, are more vulnerable, more
impulsive, and less self-disciplined than adults. Crimes committed by youths may be just
as harmful to victims as those committed by older persons, but they deserve less punish­
ment because adolescents may have less capacity to control their conduct and to think in
long-range terms than adults. Moreover, youth crime as such is not exclusively the of­
fender's fault; offenses by the young also represent a failure of family, school, and the so­
cial system, which share responsibility for the development of America's youth." Twenti­
eth Century Fund Task Force on Sentencing Policy Toward Young Offenders, Confront­
ing Youth Crime 7 (1978)
irrevocable judgment about [an offender's] value and place in society," at odds with a child's capacity for change.
Ibid.
Graham concluded from this analysis that life-without-parole sentences, like capital punishment, may
violate the Eighth Amendment when imposed on children. To be sure, Graham's flat ban on life without parole
applied only to nonhomicide crimes, and the Court took care to distinguish those offenses from murder, based on
both moral culpability and consequential harm. See id., at 69, 130 S. Ct., at 2027. But none of what it said about
children-about their distinctive (and transitory) mental traits and environmental vulnerabilities-is crime-specific.

26

In the instant case, none of petitioner’s history was presented to the Honorable Court, trial,
or sentencing. Upon sentencing, the Honorable Judge offered no reasons for the said mandatory
maximum and minimum sentence of life or enhancement. The determination of whether the
claim was presented in such a fashion is made by looking to the briefs filed in state court. Smith
v. Digmon, 434 U.S. 332, 98 S. Ct. 597, 54 L. Ed. 2d 582 (1978); Soffar v. Dretke, 368 F.3d 441,
467 (5th Cir. 2004). Accordingly, the Official Review Comment from the 1993 Code of Criminal
Procedure it states vital that life sentences are illegal and need correcting because:
(a) This article continues the 1942 determinate sentence rule, which had replaced the
indeterminate sentence provision of the 1928 Code. The indeterminate sentence rule
of Art. 529 of the 1928 Code. With minimum and maximum terms of imprisonment to
be stated gave rise to confusion and inequities. Some trial judges did not understand
the indeterminate sentence law and applied it incorrectly. Others did not like it and
continued to impose fixed sentences. As a result. Many illegal sentences were
imposed and many offenders were sentence and incarcerated without any possibility
of parole. The determinate sentence provided by amended former Art. 529, coupled
with the general right, under 1942 parole law (R.S. 15:574.4.3) to apply for parole
after serving one-third of the sentence imposed, worked much more satisfactorily.
The Louisiana Supreme Court addressed indeterminate sentences by deeming the sanc­
tions were null and void and reversing and remanding the case to the district court. State v
Dreaux, No. 37235, (3-13-44), 205 La. 387; 17 So. 2d 559; 1944 La. LEXIS 677; State v. Hart,
No: 80-KA-2398, (4-15-81), 397 So.2d 518, 1981 La. LEXIS 7729. Likewise, in this case, "By
making youth (and all that accompanies it) irrelevant to imposition of that harshest prison sen­
tence, [a mandatory] scheme poses too great a risk of disproportionate punishment." Id. at 2469.
With what we now admit in regards to treatment of juveniles and treatment of African
Americans, it is incumbent upon this Honorable Court to address the ambiguities in the illegal
sentences and enhancement in this unfortunate case and "s[he] is exceptional, which in this con­
text means that because of unusual circumstances this defendant is a victim of the legislature's
failure to assign sentences that are meaningfully tailored to the culpability of the offender, the
27

gravity of the offense, and the circumstances of the case.” State v. Johnson, 97-1906 (La. 3/4/98),
709 So.2d 672, 676.
Since Counsel made an oral objection at the sentencing, the claim of excessiveness was
preserved for appeal., however, the appellate court was only allowed to review the bare claim of
excessiveness due to counsel failing to submit the records into evidence or at trial. State ofLoui­
siana v Deidre Antoinette Pierre, (3rd., 6-11-03), 854 So. 2d 945; 2003 La. App. LEXIS 1730.
Since then, claims of sentencing errors have been granted in post-conviction as a result of Melinie being overruled. State v. Harris, (7-9-20), No: 2018-KH-01012. Article I, Section 20 of the
Louisiana Constitution of 1974 provides that "no law shall subject any person ... to cruel, exces­
sive or unusual punishment." The imposition of a sentence, although within the statutory limit,
may still violate this provision and may be reviewed on appeal. State v. Caston, All So.2d 868
(La. App 4th Cir. 1985) but “It is the legislature's prerogative to determine the length of the sen­
tence imposed for crimes classified as felonies. Moreover, courts are charged with applying these
punishments unless they are found to be unconstitutional.” Dorthey, 623 So.2d at 1278. The
United States Supreme Court has stated that "'[t]he Eighth Amendment does not require strict
proportionality between crime and sentence. Rather, it forbids only extreme sentences that are
'grossly disproportionate' to the crime.'" Ewing, 538 U.S. at 23 (quoting Harmelin, 501 U.S. at
1001 (Kennedy J., concurring in part and concurring in judgment)).
For instance, this Court imported the Eighth Amendment requirement "demanding indi­
vidualized sentencing when imposing the death penalty" into the juvenile conviction context,
holding that "a similar rule should apply when a juvenile confronts a sentence of life (and death)
in prison." Miller, 567 U. S., at 475, 477, 132 S. Ct. 2455, 183 L. Ed. 2d 407. 27 This individual-

27 The "correspondence" between capital punishment and life sentences, Miller, 567 U. S., at 475, 132 S. Ct.
2455, 183 L. Ed. 2d 407, might similarly require reconsideration of {2018 U.S. LEXIS 4} other sentencing practices
in the life-without-parole context. As relevant here, the Eighth Amendment demands that capital sentencing schemes

28

ized sentencing assists to endure due process that the State and Federal Constitutions ensure. As
reurged, the judge ordered a PSI however the report was not prepared or filed timely prompting
the Honorable Judge Herman Clause to state that having one prepared would be futile due to the
mandatory sentence. Such an investigation is an aid to the court and not a right of the accused,
however, this was pre-Miller/Montgomery. Since lower courts deem presentencing investigations
are futile when a sentence in “alphabets” is rendered and new evidence is learned daily on indi­
vidual matters, it is incumbent upon this Honorable Court to correct the injustices with regards
sentencing procedures in Louisiana. A reasonable probability in this case definitely places peti­
tioner well within the protections of Miller protections warranting less than life with an en­
hancement since nothing a concerning petitioner’s history was before the courts and nothing is
mentioned in regards to petitioner’s abusive childhood although noting that petitioner’s husband
requested documents from the Department of Socials Services concerning petitioner being
abused by her parents. By the lower courts choosing to ignore factors detailed, this Honorable
Court must address them herein.

ensure "measured, consistent application and fairness to the accused," Eddings v. Oklahoma, 455 U. S. 104, 111, 102
S. Ct. 869, 71 L. Ed. 2d 1 (1982), with the purpose of avoiding "the arbitrary or irrational imposition of the death .
penalty," Parker v. Dugger, 498 U. S. 308, 321, 111 S. Ct. 731, 112 L. Ed. 2d 812 (1991). To that aim, "this Court
has repeatedly emphasized that meaningful appellate review of death sentences promotes reliability and
consistency." Clemons v. Mississippi, 494 U. S. 738, 749, 110 S. Ct. 1441, 108 L. Ed. 2d 725 (1990); see also Parker,
498 U. S., at 321, 111 S. Ct. 731, 112 L. Ed. 2d 812 ("We have emphasized repeatedly the crucial role of
meaningful appellate review in ensuring that the death penalty is not imposed arbitrarily or irrationally"); Gregg v.
Georgia, 428 U. S. 153, 195, 96 S. Ct. 2909, 49 L. Ed. 2d 859 (1976)( "the further safeguard of meaningful
appellate review is available to ensure that death sentences are not imposed capriciously or in a freakish manner").
28 Numerous other examples could be given of situations in which courts-faced with imprecise commandsmust make difficult decisions. See, e.g., Kyles v Whitley, 514 US 419, 131 L Ed 2d 490, 115 S Ct 1555 (1995) (re­
viewing whether undisclosed evidence was material); Arizona v Fulminante, 499 US 279, 113 L Ed 2d 302, 111 S Ct
1246 (1991) (considering whether confession was coerced and, if so, whether admission of the coerced confession
was harmless error); Strickland v Washington, 466 US 668, 80 L Ed 2d 674, 104 S Ct 2052 (1984) (addressing
whether defense counsel's performance was deficient and whether any deficiency was prejudicial); Darden v Wainwright, All US 168, 91 L Ed 2d 144, 106 S Ct 2464 (1986) (assessing whether prosecutorial misconduct deprived
defendant of a fair trial); Christensen v Harris County, 529 US 576, 589, 146 L Ed 2d 621, 120 S Ct 1655 (2000)
(Scalia, J., concurring in part and concurring in judgment) (addressing whether an agency's construction of a statute
was "'(reasonable'").

29

CONCLUSION
The petition for a writ of certiorari should be granted and that oral argument and
appointment of counsel for a hearing to be had and evidence and testimony presented in this
unique case to properly address merits of this case.
Thus said and done on February 26, 2021.

Respectfully submitted:

'JUi

(jJiAju

Deidre A. Pierre #445265

30

No.
IN THE
SUPREME COURT OF THE UNITED STATES
DEIDRE A. PIERRE #445265—PETITIONER
VS.
FREDERICK BOUTTE—RESPONDENT
PROOF OF SERVICE
I, Deidre A. Pierre #445265, do swear or declare that on this date, February 26, 2021 as
required by Supreme Court Rule, I have served the enclosed Motion for Leave to Proceed in
Forma Pauperis and Petition for Writ of Certiorari on each party to the above proceeding or that
party's counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and
with first class postage prepaid, or delivered to a third party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:
District Attorney of Lafayette
Keith Stutes
P.O. Box 3306
Lafayette, LA 70502

Supreme Court of Louisiana
Clerk of Court
400 Royal Street, Suite 4200
New Orleans, LA 70130-8102

District Court Judge
Michelle Braud
P.O. Box 2009
Lafayette, LA 70702

Court of Appeal, First Circuit
1600 North Third Street
Baton Rouge, LA 70821

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 26, 2021.
Signature

Ai

ulAAjLj

Deidre A. Pierre #445265

